            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION



        SINGLE AUDIT OF THE
       STATE OF WASHINGTON
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2005

     January 2007   A-77-07-00006




  MANAGEMENT
ADVISORY REPORT
                                    Mission
By conducting independent and objective audits, evaluations and investigations,
we inspire public confidence in the integrity and security of SSA’s programs and
operations and protect them against fraud, waste and abuse. We provide timely,
useful and reliable information and advice to Administration officials, Congress
and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
We strive for continual improvement in SSA’s programs, operations and
management by proactively seeking new ways to prevent and deter fraud, waste
and abuse. We commit to integrity and excellence by supporting an environment
that provides a valuable public service while encouraging employee development
and retention and fostering diversity and innovation.
                                     SOCIAL SECURITY
MEMORANDUM
Date:   January 18, 2007                                                     Refer To:

To:     Candace Skurnik
        Director
        Audit Management and Liaison Staff

From:   Inspector General

Subject:   Management Advisory Report: Single Audit of the State of Washington for the Fiscal
           Year Ended June 30, 2005 (A-77-07-00006)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the State of Washington for the Fiscal Year ended June 30, 2005. Our
        objective was to report internal control weaknesses, noncompliance issues, and
        unallowable costs identified in the single audit to SSA for resolution action.

        The Washington State Auditor performed the audit. The Department of Health and
        Human Services (HHS) desk review concluded that the audit met Federal requirements.
        In reporting the results of the single audit, we relied entirely on the internal control and
        compliance work performed by the State Auditor and the reviews performed by HHS.
        We conducted our review in accordance with the Quality Standards for Inspections
        issued by the President’s Council on Integrity and Efficiency.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Washington Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. The
        Washington Department of Social and Health Services (DSHS) is the Washington DDS’
        parent agency.
Page 2 – Candace Skurnik

The single audit reported that:

1. The DDS did not comply with State and Federal contract procurement regulations
   when purchasing consultative evaluations (CE). (Attachment A, pages 1 through 5).
   The corrective action plan indicated that CE services will be competitively procured
   in the future. (Attachment A, page 6).

2. DDS expenditures were not accurately reported on the Schedule of Expenditures of
   Federal Awards and the quarterly report of obligations. (Attachment A, pages 7
   through 9). The corrective action plan indicated that a reconciliation method will be
   implemented to ensure that the disbursement amounts reported to SSA reconcile to
   the State accounting system. (Attachment A, page 10).

3. Unallowable indirect costs totaling $19,555 were charged to SSA for the Cooperative
   Disability Investigations Unit (CDIU). The Memorandum of Understanding, which
   identified specific costs allowed for reimbursement, did not include a provision for
   indirect costs. The unallowable costs could be even higher if this condition occurred
   in the other quarters. (Attachment A, pages 11, 12, and 13). The corrective action
   plan indicated that the DDS is working with SSA to revise the Memorandum of
   Understanding to include a provision for indirect costs. (Attachment A, page 14).

4. The DDS claimed reimbursement for $56,466 for costs that were not supported by
   documentation. The unallowable costs could be even higher if this condition
   occurred in the other quarters. (Attachment A, pages 11, 12, and 13). The DDS has
   implemented internal controls to ensure expenditures are supported by adequate
   documentation prior to payment. (Attachment A, page 14).

We recommend SSA:

1. Work with the DDS to ensure CE services are purchased in accordance with State
   and Federal regulations.

2. Verify that controls are in place to ensure that expenditures are accurately reported
   on all Federal and State reports.

3. Determine the total indirect costs that have been charged to SSA for the CDIU since
   its inception and collect the unallowable costs.

4. Determine if the $56,466 that was not supported by documentation are allowable
   charges and collect any unallowable costs.

5. Ensure the DDS has procedures in place to maintain documentation to support
   expenditures charged to its program.
Page 3 – Candace Skurnik

The single audit also disclosed that computer access controls were not in place to
ensure there is adequate separation of duties for personnel in the accounting
department (Attachment B, pages 1, 2 and 3). Although this finding was not specifically
identified to SSA it may have an impact on DDS operations. I am bringing this matter to
your attention as it represents a potential serious service delivery and financial control
problem for the Agency.

Please send copies of the final Audit Clearance Document to Shannon Agee and Rona
Lawson. If you have any questions contact Shannon Agee at (816) 936-5590.




                                                Patrick P. O’Carroll, Jr.

Attachments
Attachment A
 Page 1 of 14
Attachment A
 Page 2 of 14
Attachment A
 Page 3 of 14
Attachment A
 Page 4 of 14
Attachment A
 Page 5 of 14
Attachment A
 Page 6 of 14
Attachment A
 Page 7 of 14
Attachment A
 Page 8 of 14
Attachment A
 Page 9 of 14
Attachment A
Page 10 of 14
Attachment A
Page 11 of 14
Attachment A
Page 12 of 14
Attachment A
Page 13 of 14
Attachment A
Page 14 of 14
Attachment B
  Page 1 of 3
Attachment B
  Page 2 of 3
Attachment B
  Page 3 of 3
               Overview of the Office of the Inspector General
The Office of the Inspector General (OIG) is comprised of our Office of Investigations (OI),
Office of Audit (OA), Office of the Chief Counsel to the Inspector General (OCCIG), and Office
of Resource Management (ORM). To ensure compliance with policies and procedures, internal
controls, and professional standards, we also have a comprehensive Professional Responsibility
and Quality Assurance program.
                                        Office of Audit
OA conducts and/or supervises financial and performance audits of the Social Security
Administration’s (SSA) programs and operations and makes recommendations to ensure
program objectives are achieved effectively and efficiently. Financial audits assess whether
SSA’s financial statements fairly present SSA’s financial position, results of operations, and cash
flow. Performance audits review the economy, efficiency, and effectiveness of SSA’s programs
and operations. OA also conducts short-term management and program evaluations and projects
on issues of concern to SSA, Congress, and the general public.


                                    Office of Investigations
OI conducts and coordinates investigative activity related to fraud, waste, abuse, and
mismanagement in SSA programs and operations. This includes wrongdoing by applicants,
beneficiaries, contractors, third parties, or SSA employees performing their official duties. This
office serves as OIG liaison to the Department of Justice on all matters relating to the
investigations of SSA programs and personnel. OI also conducts joint investigations with other
Federal, State, and local law enforcement agencies.


                   Office of the Chief Counsel to the Inspector General
OCCIG provides independent legal advice and counsel to the IG on various matters, including
statutes, regulations, legislation, and policy directives. OCCIG also advises the IG on
investigative procedures and techniques, as well as on legal implications and conclusions to be
drawn from audit and investigative material. Finally, OCCIG administers the Civil Monetary
Penalty program.
                              Office of Resource Management
ORM supports OIG by providing information resource management and systems security. ORM
also coordinates OIG’s budget, procurement, telecommunications, facilities, and human
resources. In addition, ORM is the focal point for OIG’s strategic planning function and the
development and implementation of performance measures required by the Government
Performance and Results Act of 1993.
